/

r
<

r

A

r*

r

APPENDIX
r\

l

"A
te/-

v

>•

r
\

>•
)

r
TABLE OF APPENDICIES

C

Exhibit A - Appeals Court Judges Howard, Thompson,
and Kayatta's May 21, 2021 JUDGMENT.
Exhibit B - Appellant's Opposition To Appellee's
Motion For Summary Disposition ..................................

r
Exhibit C - Judge Laplante's dismissal Order of
August 6, 2019

C

r

Exhibit D - Judge Laplante's denial of "plaintiff's
motion to vacate, alter, or amend the judgment".
Exhibit E - Judge Joseph Laplant Order of May 8,
20.19, requesting list of issues for DuLaurence to
review which were set out in DuLaurence's Verified
Civil Rights Complaint.
Exhibit F - Plaintiff's Response to the above Order.
Exhibit G - Amended Notice Of appeal.

C

L

Exhibit H - Appeals Court Judges Howard, Thompson,
and Kayatta's JUDGMENT of November 30, 2016
affirming the District Court Order of Dismissal,
but allowing DuLaurence vto proceed in forma
pauperis, overturning Judge Woodlock's Order that
DuLaurence's claims were frivolous, but denied the
motion to recuse Judge Woodlock as being "moot".
Exhibit I - Appeals Court Judges Howard, Thompson,
and Kayatta's ORDER OF COURT, entered January 5,
2017, denying DuLaurence's petition for rehearing.
Exhibit J - Appeals Court Judges Howard, Thompson,
and Kayatta's ORDER OF COURT, entered October 12,
2017, denying DuLaurence's Motion to Vacate Judgments
Pursuant to Rule 60(b), and Title 28 U.S.C. § 455.

L
Exhibit K - The above Appeals Court Judges' ORDER OF
COURT entered November 29, 2017, denying DuLaurence's
petition for rehearing and rehearing en banc.
Exhibit L

Part of DuLaurence's underlying complaint
1.

r

r

r

r

r

evidencing Judge Woodlock and Appeals Court Judges
Howard, Thompson, and Kayatta helped to perpetuate
"multi-judge corruption rings".
Exhibit M - DuLaurence's Verified Civil Rights Complaint
against Judge Woodlock, showing federal jurisdiction in
the court of the first instance, and the facts showing
that the federal questions were first raised at the time
the Complaint was filed, and further showing the manner
in which they were raised.
Exhibit N - Partial copy of Judge Woodlock's MEMORANDUM
AND ORDER of March 31, 2015, showing that he never had
any intention of addressing the federal statute 42 U.S.C.
§ 1983 as he had an 'obligation to give full faith and
credit to the state court judgments'. (Pages 1, 2, 8, and
11.)
The U. S. Supreme Court in James v. City of Boise,
Idaho, 136 S. Ct. 685 (2016)

(

L

L

(per curiam), ruled:

Section 1983 is a federal statute. 'It is
this Court's responsibility to say what a
federal statute means, and once the Court
has spoken, it is the duty of the other courts
to respect that understanding of the governing
rule of law'. (Citation omitted.) Id. at 686.
At pages 6-7. Judge Woodlock acknowledges DuLaurence's
federal statute criminal obstruction and 42 U.S.C. § 1983
claims; and at page 13, that DuLaurence "makes repeated
allegations about unethical, criminal, and illegal
conduct by judges that presided over the case in state
court. Page 22 shows that Judge Woodlock not only sided
with the state courts in changing the facts in the case,
but stating that DuLaurence "continue[s] challenging,
without good reason" the state court judgment... For that
reason, he faces state court sanctions". If Judge
Woodlock had bothered to read any of DuLaurence's
Verified Complaint, he would have seen that DuLaurence
challenged the "malice" jury verdict based on United
States Supreme Court decisions on the issue, attributing
the "malice" of the immediate supervisor to the defendant
company, Liberty Mutual. (Ex. L, pgs. 31—32.)
2.

p

P

r

c

r

&

Exhibit A

r

United States Court of Appeals
c

For the First Circuit
Nos.

r

19-1905
20-1254
HENRY J. DULAURENCE, III,
Plaintiff - Appellant,
v.

r
JUDGE DOUGLAS P. WOODLOCK, individually and in his official capacity,
Defendant - Appellee.
C

Before
Howard, Chief Judge,
Thompson and Kayatta, Circuit Judges.

C
JUDGMENT
Entered: May 21, 2021
C

C

C

Henry J. DuLaurence, III, pro se, appeals from the dismissal of his complaint against Judge
Douglas P. Woodlock, and from a subsequent order denying DuLaurence's motion to vacate the
dismissal or to alter or amend the judgment. Judge Woodlock has filed a motion for summary
disposition pursuant to 1st Cir. R. 27.0(c). After careful review of the record, and consideration of
the parties' submissions and arguments, we allow Judge Woodlock's motion and affirm,
substantially for the reasons stated in the district court's August 6, 2019 order granting Judge
Woodlock's motion to dismiss. Because Judge Woodlock's judicial immunity barred all claims
raised in the complaint, there was no need for the district court to explain "on a claim-by-claim
basis" why the claims were being dismissed. As for the denial of the motion to vacate or to alter
or amend the judgment, to the extent that the issue is not waived due to the lack of developed
argument, see United States v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990), we see no error and affirm
the order denying the motion.

By the Court:
G

Maria R. Hamilton, Clerk

r

p

n

D

3

D

3
t

3

3

!
-»

3
I

t

!>

t

1

Exhibit B

r
United States Court of Appeals
For the First Circuit

r
Nos.

n

19-1905
20-1254

HEHRY J. DULAURENCE, III,
Plaintiff - Appellant,
v.

r

JUDGE DOUGLAS P. WOODLOCK, individually
and in his official Capacity,
Defendant - Appellee.

f

(

(1) APPELLANT'S REPLY TO APPELLEE'S REPLY
REGARDING DELIVERY OF HIS MOTIONS FOR SUMMARY
DISPOSITION, AND (2) APPELLANT'S OPPOSITION TO
APPELLEE'S MOTION FOR SUMMARY DISPOSITION
Appellant's Response Regarding Delivery

(_

The appellant feels that he must file a response
questioning the purpose of Appellee's Reply Regarding
Delivery of his Motions For Summary Disposition. This
appears to be an attempt to discredit DuLaurence. This
document contains misleading information. See 28 U.S.C. §
1927 .
Facts
The Post Office improperly attempted delivery of
Appellee's motion on September 5, by merely leaving the
1.

r
attempted delivery slip in DuLaurence's mail box.

r

DuLaurence filed a complaint with the Post Office as to
this improper attempt, and could obtain a copy for the
Court if requested. Appellee's counsel stated: "As of the

r
date of this filing (September 15, 2020), Appellant has not
claimed the mailing or requested redelivery". In fact,

r

after speaking with someone at the Post Office, Appellant
was told that all he .had to do was sign the reverse and
leave it in his mail box, and the postal delivery person

r

would take the slip and place the envelope in the mail box,
which the delivery person did. DuLaurence did "request
redelivery", and it was redelivered to him on the next

r
Tuesday, September 8, 2020, as Monday was a holiday.
Appellee Counsel further stated: "On September 9, 2020,

C

Appellant filed his response to the motion for summary
disposition, stating that he had not as of that date
(September 9, 2020). received Appellee's motion for summary

f.

disposition". Appellant had in fact stated that as of the
afternoon of September 4, 2020, he had not received the
motion, which must 'be true if, as appellee counsel set out,

V-

the Post Office only first attempted delivery on September
5, 2020. DuLaurence attaches the receipt from the Post
C

Office as EXHIBIT 1, showing the he served his response on
2.

September 4, 2020, by first class mail to Appellee counsel,
and by priority mail to the Court. DuLaurence served it at
that time because he had only 10 days plus 3 mailing days
to file his response.

r
Appellant's Opposition To Appellee's
Motion For Summary Disposition
Local Rule 27(c) provides in part: "At any time...the

r

court may dismiss the appeal...if it shall clearly appear
that no substantial question is presented". From reading

f

the appellee's mini-brief and DuLaurence's Brief, it is
clear that there are many "substantial questions" to be
resolved. The appellee's mini-brief has no Table of
Contents to help guide the Court, although it quickly
dismisses important legal issues' like "fraud upon the
court". It does not even mention the Bivens v. Six Unknown

k

Named Agents, 403 U.S. 388 (1971) claim, which in itself
presents important issues to be determined by this Court,

L-

as it affords a claim for Constitutional deprivation of
rights. 42 U.S.C. § 1983 creates a statutory cause of
action against state or local officials. In contrast, a

c

Bivens action is judicially created and directed against
federal officials. See Correctional Services Corp. v.
Maleskof 534 U.S. 61 (2001) . The appellee's mini-brief sets
3.

r
out that DuLaurence had exhausted all his remedies. This

r

showing is necessary to present a Bivens claim. Judge
Woodlock intentionally deprived DuLaurence of federal
statute causes of action by preventing procedural and

r
substantive due process. He intentionally deprived him of
his right of redress (First Amendment), and his rights
C

under the Fourteenth Amendment, and other rights afforded
him pursuant to the Bill of Rights and the United States
Constitution. See Albright v. Oliver, 510 U.S. 266 (1994).

C

Appellee Counsel contests the merits of the
Appellant's Brief in this motion. The issues involved are
much more complicated and far reaching than Local Rule

C,
27(c) provides for. The Court might consider the need for a
Rule 35 hearing en banc, as the case presents "questions of
L

exceptional importance", such as Judge Woodlock's bias
acquired from extrajudicial sources as the need for
disqualification, preventing him from invoking absolute
judicial immunity. As set out in Liteky v. United States,
510 U.S. 540 (1994) as to the extrajudicial source rule
under Section 455(a), a judge must be disqualified only if

L
it appears that he or she harbors an aversion, hostility,
or disposition of a kind that a fair minded person could
L,

not set aside when judging the dispute. Judge Woodlock's
4.

bias was different in kind. He was disqualified by law so
as to prevent him from claiming absolute judicial immunity;
he was biased against any litigant who attempted to present
a federal claim arising under federal statute 42 U.S.C. §
1983 involving judges. He intentionally prevented
DuLaurence from- presenting his claim, an act expressly
prohibited by existing law. Please see also appellant's
"QUESTIONS PRESENTED" and "TABLE OF CONTENTS" in his Brief.
Further, under Fed. R. Civ. Proc. 8(a), a complaint
should state "a short and plain statement of the claim
showing that the pleader is entitled to relief!. All of the
facts and inferences within the complaint should be treated
in the light most favorable to the plaintiff. The law as to
sufficiency of pleadings is that

N\ \

the federal rules have

abolished the restrictive theory of the pleadings doctrine,
making it unnecessary to set out a legal theory for a
plaintiff's claim for relief f

n

. Johnson v. City of Shelby.

Miss., 135 S. Ct. 346, 347 (2014).
Respectfully submitted,

Henry J. DuLaurence, III
Plaintiff-Appellant
1 South Union Street, #114
Lawrence, MA 01843
(978) 208-1399
Dated:

October 2, 2020
5.

-1

c

Exhibit C

D

3
i

\

i

0

b

b

i

i

\

?
i

I

1
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

r

W

Henry j. DuLaurence,' III
v.

i

Civil No. 1:18-cv-l1430-JL

Judge Douglas P. Woodlock,
individually, and in his
official capacity

ORDER
■l

Henry DuLaurence has sued United States District Judge
Douglas Woodlock in nine counts.

Judge Woodlock moves to

:■»

dismiss.

In a previous order, document no. 22, the court

f

indicated that it intended to hold a hearing on the defendant's
motion, but upon further review, the court concludes that a

1

hearing is unnecessary.

For the reasons that follow, the

defendant's motion to dismiss is granted.
}$

m
W

Background
In July of 1995, DuLaurence brought an employment action

1
H§

against Liberty Mutual Insurance Co. and several other

1

defendants in the Massachusetts Superior Court.

H

v. Teleqen,

See DuLaurence

94 F.. Supp. 3d 73, 76 (D. Mass. 2015).

Liberty

Mutual prevailed in the suit, see id. at 77, and DuLaurence
!|
a

filed a collateral action, also unsuccessful, in the
Massachusetts Superior Court,
in this court,

see id., and next filed an action

seeking relief from the two final judgments that

r
went against him in the Massachusetts state courts, see id. at
76. ,

r

In DuLaurence's first action in this court, Judge Woodlock
granted the defendants' motion to dismiss.
ruled that:

c

In doing so, he

(1) he lacked subject-matter jurisdiction over

DuLaurence's claims, under the Rooker-Feldman abstention
doctrine;1 and (2) even if he had subject-matter jurisdiction
over those claims, they were barred by the doctrine of res

(

judicata because they had already been resolved through final
judgments in the Massachusetts state courts.
(

After Judge

Woodlock issued his order granting the defendants' motion to
dismiss, DuLaurence moved Judge Woodlock to recuse himself.
Judge Woodlock denied the motion.

C

The Court of Appeals affirmed

Judge Woodlock's dismissal of DuLaurence's claims and denied, as
moot, DuLaurence's motion for recusal.

i

See DuLaurence v.

Telegen, No. 15-1537, 2016 WL 10454553, at *1 (1st Cir. Nov. 30,
L

2016) .
This action followed.

In it, DuLaurence asserts:

(1) two
i:

claims arising under Bivens v. Six Unknown Named Agents of the
k
Federal Bureau of Narcotics, 403 U.S. 388 (1971);

(2) four

purported claims arising under the federal criminal code;

(3)

f
•*

i
1 See D.C. Court of Appeals v. Feldman, 460 U.S. 462 (1983);
Rooker v. Fid. Tr. Co■, 263 U.S. 413 (1923).

1
2

i

■t

i

!

one count arising under the federal statute governing the

i

disqualification of.judges; and (4) claims under the state law

*

I

of Massachusetts for negligent and intentional infliction of

1

emotional distress.

f
1

See Order (doc. no. 22)

2-4.

Discussion '

■ft

Judge Woodlcck moves to dismiss on several grounds, one of

4

which is dispositive:

judicial immunity.

''[ I ] t is an axiom of black letter law that when a judge

1

carries out traditional adjudicatory functions, he or she has
absolute immunity for those actions."
611,

a

16,

I

616 (1st Cir. 2019)
25 (1st Cir. 2013)).

Zenon v. Guzman,

924 F.3d

(citing Goldstein v. Galvin, 719 F.3d
More specifically:

To determine if a judge is entitled to the full
protection of the doctrine's deflector shield,, the
Supreme Court has assessed whether the judge's act was
one normally performed by a judge, and whether the
parties were dealing with the judge in his or her
judicial capacity.
Stump v. Sparkman, 435 U.S. 349,
362 (1978).
Judicial immunity is appropriate unless a
judge is carrying out an activity that is not
Forrester
v. White, 484 U.S. 219, 227adjudicatory. ___
___________________
28 (1988) ("Administrative decisions, even though they
may be essential to the very functioning of the.
courts, have not similarly been regarded as judicial
acts.")•

I

The Supreme Court elaborated further in Mireles
v. Waco, explaining that immunity is overcome only in
cases where a judge is carrying out a nonjudicial
action, or in instances where a judge takes an action,
though seemingly "judicial in nature, " that is "in the
complete absence of all jurisdiction." 502 U.S. 9,
11-12 (oer curiam) (citing Forrester, 484 U.S. at 22729; Stump, 435 U.S. at 356-60; Bradley fv. Fisher], 80
"Accordingly,"
U.S . mr Wall.) [335,] 347 [(1871)).
3

i

167a.

1

r>

the Mireles Court instructed, "as the language in
Stump indicates, the relevant inquiry is the 'nature'
and 'function' of the act, not the act itself." 502
U.S. at 13 (quoting Stump, 435 U.S. at 362).
Zenon,

924 F.3d at 617

(footnotes, parallel citations omitted).

In Zenon, the Court of Appeals held that the defendant, a
state court judge, was entitled to judicial immunity because the
action the plaintiff challenged,

the issuance of a protective

order he deemed to be unconstitutional,
in both [its]

was "inarguably judicial

'nature' and [its] function.

(citations omitted).

/

ft

924 F.3d at 620

So too, here.

DuLaurence challenges two actions that Judge Woodlock took:

j:i

(1) granting the defendants' motion to dismiss his previous
action in this court; and (2) denying his motion for recusal.
Both of those two actions, i.e.,

ruling on motions, are acts

"normally performed by a judge," Zenon,

924 F.3d at 617, and

when Judge Woodlock took those actions,

"the parties were

dealing with [him] in his .

.

. judicial capacity," id.
1

Moreover,

there is no basis for an argument that when making the

decisions at issue here, Judge Woodlock took actions that seemed
judicial in nature but were taken "in the complete absence of
■ t

all jurisdiction,

/ rt

id.

(quoting Mireles,

502 U.S. at 12).

In

light of Zenon, the court has no difficulty concluding that in
this case, Judge Woodlock is entitled to the protection of
judicial immunity, which entails "not just immunity from

4

f|

rv
-s-

s

924 F.3d at

618 n.10 (citing Mireles, 502 U.5. at 11; Mitchell v. Forsyth,
472 U.S. 511, 526

r
II
r

damages, but immunity from suit altogether," Zenon,

I
1*

1

(1985)).

Plaintiff argues that Judge Woodlock is not entitled to
judicial immunity because:

(1) asserting subject-matter

jurisdiction over his claims and recusing himself were not
adjudicatory acts but were ministerial tasks he was obligated to

I
perform; and (2)
r'

I1
1
•a

judicial immunity does not protect against

liability for criminal acts or judicial misconduct.

Neither

argument has merit.
First of all, the two actions that DuLaurence challenges,

1

I

granting a motion to dismiss and denying a motion to recuse,

i
were adjudicatory acts; they required Judge Woodlock to weigh
competing arguments and apply the applicable law.
%

DuLaurence

argues that those acts were ministerial because Judge Woodlock
had no choice but to exercise jurisdiction over his claims or
recuse himself after he decided not to exercise jurisdiction.
But Judge Woodlock did have choices, and he made them after
engaging in legal analysis.

DuLaurence's belief that Judge

Woodlock reached the wrong legal conclusions about dismissal and

1
»

I'»

recusal does not transform the exercise of jurisdiction or
recusal into ministerial acts rather than adjudicatory acts.
the Supreme Court has explained:

•f

I

I.

t.
5
1

169a.

I
m

As

5

r
[Ijf only the particular act in question were to be
scrutinized, then any mistake of a judge in excess of
his authority would become a "nonjudicial" act,
because an improper or erroneous act cannot be said to
be normally performed by a judge.
If judicial
immunity means anything, it means that a judge "will
not be deprived of immunity because the action he took
was in error ... or was in excess of his authority."
[Stump, 435 U.S. at] at 356.
See also Forrester v.
White, 484 U.S., at 227 (a judicial act "does not
become less judicial by virtue of an allegation of
malice or corruption of motive").
Mireles, 502 U.S. at 12-13 (parallel citations omitted)

(holding

that judicial immunity protected a judge who was sued for
ordering police officers to use excessive force to bring an
attorney into his courtroom).
DuLaurence also argues that Judge Woodlock is not entitled
to judicial immunity because he engaged in conduct that was

A
(

criminal, impeachable, or that qualifies as judicial misconduct.
However,

"the relevant inquiry is the 'nature' and 'function' of

the act, not the act itself."
i.

Mireles,

Zenon,

502 U.S. at 13; Stump,

924 F.3d at 617

435 U.S. at 362)..

The two acts

at issue here were "inarguably judicial in both their
and their function.
omitted).

/ rr

. Zenon,

(quoting

'nature'

924 F.3d at 620 (citations

And there is no plausible argument to be made that

those acts just seemed to be judicial in nature but were, in
reality, undertaken "in the complete absence of all
jurisdiction," Zenon,

924 F.3d at 617.

In other words, because

Judge Woodlock had jurisdiction to rule on the defendants'

6

motion to dismiss and DuLaurence's motion for recusal, the
decisions he made when ruling on those motions are immaterial,
and Judge Wocdlock is entitled to judicial immunity.
Even so,

¥
4
h

1

it is worth pointing out that Judge Woodlock's

judicial immunity does not deprive DuLaurence of remedies.

In

f

S'

i
f

in­

I
i

I

fact, he has already appealed the actions he challenges here to
both the First Circuit Court of Appeals and the United states
Supreme Court.

1

r~

4

4
4
4
f
I;

And if plaintiff believes that Judge Woodlock

committed judicial misconduct, there are avenues available for
him to pursue such a claim.

A civil action in this court,

however, is not one of those avenues.
Conclusion
For the reasons detailed above, the defendant's motion to

■"t

%
•i

dismiss2 is granted.

Accordingly, the clerk of the court shall

close the case.
#
4

*

SO ORDERED.

fi
4

I
;

s4
1

District Judge
Dated:
cc:

i

August 6,

2019

Henry J. DuLaurence, III, pro se
Christopher L. Morgan, AUSA

4

if

2 Document no. 7
7

171a.

f
Exhibit I)

0

j

M>

°1

J

\
I
*
J

:>

3
I

i

L_

09/30/2019

34

Opposition re 31 MOTION to Vacate 26 Order Dismissing Case filed by
Douglas P. Woodlock. (Morgan, Christopher) (Entered: 09/30/2019)

01/29/2020

35

Judge Joseph N. Laplante: ELECTRONIC ORDER: The plaintiffs motion to
vacate, alter, or amend the judgment (doc. no. 3J_) is denied. The plaintiff filed
a complaint that named Judge Woodlock as the sole defendant and brought
claims only against Judge Woodlock. Compl. (doc. no. 1) at 1.3, 24. In
docketing the case, the court incorrectly identified the U.S. District Court for the
District of Massachusetts as a second defendant. The plaintiff asserted that the
District Court was in fact a defendant in his filing of May 30, 2019 (doc. no.
24 ), but relied on a solitary use of the plural "defendants" in the motion to
dismiss memorandum filed by Judge Woodlock. The plaintiff has not shown that,
he ever properly stated any claim for relief against the District Court. The court's
order granting Judge Woodlock's motion to dismiss (doc. no. 25 ) thus resolved
all the claims in the complaint. The court did not need to reach the additional
issues identified in the plaintiffs motion once it determined that Judge
Woodlock is entitled to judicial immunity, which entails "immunity from suit
altogether." Zenon v. Guzman. 924 F.3d 611,617 n. 10 (1st Cir. 2019). (Vieira,
Leonardo) Modified on 1/31/2020 (Vieira, Leonardo). (Entered: 01/31/2020)

02/26/2020

36 NOTICE OF APPEAL as to 35 Order on Motion to Vacate,,,,, by Henry J.
DuLaurence, HI NOTICE TO COUNSEL: A Transcript Report/Order Form,
which can be downloaded from the First Circuit Court of Appeals web site at
http://www.ca 1 .uscouns.gov MUST be completed and submitted to the Court ot
Appeals. Counsel shall register for a First Circuit CM/ECF Appellate Filer
Account at httn://»acer.nsc.uscourts.gQv/cinecf. Counsel shall also review
the First Circuit requirements for electronic filing by visiting the C.M/ECF
Information section at httt)://www.cal.uscourts.gov/cniecf. US District
Court Clerk to deliver official record to Court of Appeals by 3/17/2020.
(adininn, ) (Main Document 36 replaced on 4/15/2020) (adminn, ). (Entered:
02/27/2020)

02/28/2020

37

Certified and Transmitted Abbreviated Electronic Record on Appeal to US
Court of Appeals re 36 Notice of Appeal. (Paine, Matthew) (Entered:
02/28/2020)

03/02/2020

38

USCA Case Number 20-1254 for 36 Notice of Appeal filed by Henry J.
DuLaurence, III. (Paine, Matthew) (Entered: 03/02/2020)

04/15/2020

39 Notice of correction to docket made by Court staff. Correction: document was
replaced for entry 36 corrected because: document was not properly scanned and
was missing pages, (adminn,) (Entered: 04/15/2020)

04/16/2020

40

r

r*

i

i

Amended Certified and Transmitted Abbreviated Electronic Record on Appeal
to US Court of Appeals re 36 Notice of Appeal. (Paine, Matthew) (Entered:
04/16/2020)

PACER Service Center
Transaction Receipt

* n a /o AO A

e

f*

P

t
i ■

r

4

Exhibit E

Case l:18-cv-11430-JL Document 22 Filed 05/08/19

Page 1 of 5

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

r

Henry J. DuLaurence,

hi
Civil No.

v.

r

1:18-cv-11430-JL

Judge Douglas P. Woodlock,
individually, and in his
official capacity

r

ORDER
Henry DuLaurence has sued United States District Judge
Douglas Woodlock.

Before the court is defendant's motion to

(

dismiss.

The court intends to hold a hearing on defendant's

motion, but in order to conduct a meaningful hearing, the court
needs a better understanding of plaintiff's claims, which are
(

‘

not delineated in his complaint in the conventional way.
Accordingly, in this order, the court outlines the claims that
C

plaintiff appears to assert in his complaint, and directs him to
respond in the manner described at the. end of the order.
However, the court begins by desorib.ing, briefly, the factual
basis for plaintiff's claims, as alleged in his complaint.
In July of 1995, DuLaurence initiated an employment action
in the Suffolk, Massachusetts Superior Court.

The defendants

I
prevailed at trial and on appeal,

DuLaurence then filed a

second state-court action arising out of the litigation of his
o

U'

first state-court action.

Again, the defendants prevailed in

r

Case l:18-cv-11430-JL Document 22 Filed 05/08/19 Page 2 of 5

the district court and on appeal. ' Next, plaintiff filed an 11-

r
count action in the United States District Court for the
<

District of Massachusetts, arising out of the state courts'

r

adjudication of his two state cases.

In Count 1 of his

complaint in that action, plaintiff invoked 42 U.S.C. § 1983.
Judge Woodlock dismissed plaintiff's claims, on grounds that:
C

(1) the court lacked subject matter jurisdiction over them
pursuant to the Rooker-Feldman abstention doctrine;1 and (2) even
if the court had subject matter jurisdiction over plaintiff's

i

Based

claims, they were barred by the doctrine of res judicata.

upon language in Judge Woodlock's order of dismissal, plaintiff
moved for his recusal, pursuant to 28 U.S.C. § 455.

Judge

i

Woodlock declined to recuse himself.

Plaintiff appealed, and

the Court of Appeals affirmed, on grounds that plaintiff's
motion for recusal was moot, in light its affirmance of Judge
1,
Woodlock's ruling that his court lacked subject matter
jurisdiction over plaintiff's
claims.
/
L

This action followed.

In it, the sole defendant is Judge

Woodlock.
In Count 1, asserted pursuant to Bivens v. Six Unknown
V

Named Agents of the Federal Bureau of Narcotics,

403 U.S. 388

(1971), plaintiff claims that defendant violated Article I,

i

See D.C. Court of Appeals v. Feldman, 460 U.S. 462
Rooker v. Fid. Tr. Co., 263 U.S. 413 (1923).
2

(1983);

r

Case l:18-cv-11430-JL Document 22 Filed 05/08/19 Page 3 of 5

Section 9, Clause 8 of the United States Constitution, which

r

provides that "No Title of Nobility shall be granted by the
United States."
In Count 2, a second Bivens claim, plaintiff asserts that

C
Judge Woodlock violated his rights under the Ninth Amendment to
the United States Constitution, which provides that "[t]he

r

enumeration in the Constitution, of certain' rights,

shall not be

construed to deny or disparage others retained by the people."
Count 3 is a claim under 18 U.S.C. § 242, a provision in

r

the federal criminal code that makes it unlawful for a person,
acting under color of any law, to deprive any other person "of
any rights, privileges, or immunities secured or protected by

r

the Constitution or laws of the United States."
Count 4 is a claim under 18 U.S.C. § 371, a provision in
the federal criminal code that makes it unlawful for "two or

C
more persons [to] conspire either to commit any offense against
the United States, or to defraud the United States, or any
agency thereof in any manner or for any purpose."
L
Count 5 is a claim under 18 U.S.C. § 1503, a provision in
the federal criminal code that, as a general matter, makes it
unlawful for any person to use threats of force or threatening
communications to "endeavor[] to influence, intimidate, or
impede any grand or petit juror, or officer in or of any court
in the United States," or to injure any such person on account
3

W

r

Case l:18-cv-11430-JL Document 22 Filed 05/08/19

Page 4 of 5

of serving as a juror or carrying out his or her official

r

duties.
Count 6 is a claim under 18 U.S.C. § 1505, a provision in
the federal criminal code that, as a general matter, makes it

C
unlawful to commit various acts that constitute obstruction of
proceedings before federal departments or agencies.

C

Count 7 is a claim under 28 U.S.C. § 455(a), which provides
that "[a]ny justice, judge, or. magistrate judge of the United
States shall disqualify himself in any proceeding in which his

(

impartiality may reasonably be questioned."
Count 8 is a claim that defendant is liable for the
negligent infliction of emotional distress under the common law

f

of Massachusetts.
Count 8 is a claim that defendant is liable for the
intentional infliction of emotional distress under the common
law of Massachusetts.
Within 30 days of the date of this order, plaintiff shall

L

respond by notifying the court as to whether the claims outlined
above are the claims he intends to assert in this case.'

In his

response, he may ask the court to delete any claims he does not
k

actually intend to assert, and he may ask the court to add any
claims he believes the court has overlooked.

But, because this

is not in invitation for the submission of an amended complaint,
for any claim that plaintiff asks the court to add, he must
4

r

Case l:18-cv-11430-JL Document 22

Filed 05/08/19

Page 5 of 5

indicate where, in his current complaint, that claim has been

r

asserted.

After the court has had the opportunity to review

plaintiff's response,

it will schedule a hearing on defendant's

motion to dismiss.

SO ORDERED.

K

r

Joseph N. Laj/Lante
Umted States District Judge
Dated:

(

cc:

May 8,

2019

Henry J. DuLaurence, III, Esq.
Christopher L. Morgan, AUSA

('

I

c

V.

5

r>

*

%

Exhibit F

r

HENRY J.

DULAURENCE,

III

C
Plaintiff

Civil Action No.
1:18-CV-11430-JL

I

r
V.

DOUGLAS P. WOODLOCK,

ET AL.

C
Defendants

f
PLAINTIFF' S RESPONSE TO COURT ORDER

<

Now comes the plaintiff in the above entitled action

and files his Response to the Court's Order of May 8, 2019.
The law as to sufficiency of pleadings is

C

that 'the federal rules have abolished the restrictive
theory of the pleadings doctrine, making it unnecessary to
set out a legal theory for a plaintiff's claim for relief'.
Johnson v. City of Shelby, Miss., 135 S. Ct. 346,

347

(2014) . "Federal pleading rules call for 'a short and
L- ,

plain statement of the claim showing that the pleader is
entitled to relief', Fed. Rule Civ. Proc. 8(c) (2)". Id. at
3ffr. While Rule 8 allows the pleading of conclusions, Rule

/T*\

12(e)

r

(motion for more definite statement) and Rule 12(f)

(motion to strike), cure the only real impropriety of the
pleading of conclusions, namely that a pleading is too
vague to form a responsive pleading. Neither motion was
filed.
There is the further proposition:

r

w /

[One] must

consider the cumulative effect of the [defendants'] many
infractions'... [We] will not ignore the 'totality of the
circumstances / // . See In the Matter of Crossen, 450 Mass.
533, 574-575 (2008). See #10 at page 8, below.
1.

Facts:
There are two defendants in the case, Judge Douglas

(

P. Woodlock, individually; and the U. S. District Court
for the District of Massachusetts. This is set out in the
motion to dismiss memorandum at page 15, and responded to
at page 13 of Plaintiff's Opposition.
2.

Discussion:
The federal judiciary is becoming less and less

receptive to plaintiffs seeking to enforce individual
rights guaranteed by the Constitution at the time when the
1.
need for a strong, independent judiciary is becoming
greater. The very purpose of the Bill of Rights with the
"Incorporation Doctrine" of the Fourteenth Amendment which
2.

r
involve the right to redress, was to withdraw certain

r

subjects from the vicissitudes of political controversy, to
place them beyond the reach of officials, and to establish
them as legal principals to be applied by the courts. "It

r

is axiomatic that 'a fair trial in a fair tribunal is a
basic requirement of due process f

r

n

. Caperton v.- A.T. Massey

Coal Co., 129 S. Ct. 2252, 2259 (2009). Judge Woodlock )
overstepped the bounds of the Code of Judicial Conduct by
invalidating federal legislation 42 U.S.C. § 1983, stating

f

(

in his Memorandum And Order of March 31, 2015:
Concluding that I am without jurisdiction
to review the state court judgments and that
indeed I would have an obligation did I have
jurisdiction to give full faith and credit
to them, I dismiss this action. Id. at 1-2.
At that point in time, Judge Woodlock became disqualified

C

by law, not allowing him to claim absolute immunity. 42
U.S.C. § 1983, which he dismissed, expressly authorizes-a
private remedy for acts taken under color of state law and

U

violate rights secured by federal law. See Grable and Sons
Metal Products v. Da'rue Engineering and Manufacturing, 545
U.S. 308, 312 (2005). In such cases, federal law both

L
creates the cause-of-action, supplying the underlying
substantive rules that govern a defendant's conduct, and
u

authorizes plaintiffs to enforce the rights created. When
3.

(

c

Federal law creates a claim, federal jurisdiction exists.

c
Mims v. Arrow Financial Services, LLC, 132 S. Ct. 740, 748749 (2012). No discretion exists. 42 U.S.C. § 1983 creates

r

a statutory cause of action against state or local
officials. In contrast, a Bivens action is judicially
created and directed against federal officials.

C

No claims are being waived.
•

When judges commit criminal acts, they are not
acting within their "jurisdiction"1, and are
therefore not protected by "absolute immunity"
from civil lawsuits for damages.

•

Judge Woodlock committed acts which had nothing to
do with the proper administration of justice
required by the Code of Judicial Conduct and the
U.S. Constitution. He changed documented facts and
law to support his rulings, which can only be
deemed "criminal", and certainly constituted
illegal acts as set out in 18 U.S.C. §§ 242, 371,
1503, and 1505.

•

The defendant engaged in conduct which constitutes
one or more grounds for impeachment under Article
II of the Constitution.

•

While the terms disqualification and recusal are
used interchangeably, such use is in error. If
disqulification of a judge is required under the
Constitution, he or she is absolutely without
jurisdiction in the case, and any judgment
rendered by him or her is void, without effect,
and subject to collateral attack. Disqualification
is automatic. Further, the failure of a judge to
recuse when recusal is appropriate can constitute
a violation of the Code of Judicial Conduct.
Failure to recuse may rise to the level of
disqualification when it impacts a litigant's

r

(

C

O

L

r

4.

W

r

r

right to due process. Any objective observer would
certainly entertain reasonable questions as to
Judge Woodlock's impartiality. See #10 at page 8
below. 28 U.S.C. § 455(a)and(b).
The plaintiff has claimed criminal infractions by

r

Judge Woodlock, which should initiate federal prosecution
by Defense Counsel Lelling's office for the defendant's
obstruction of justice. It was only a few weeks ago, April

C
25, 2019, that Attorney Lelling told The Boston Globe in an
article titled "Mass. Judge faces federal charges": "This

c

case is about the rule of law. The allegations in today's
indictment involve obstruction by a sitting judge, that is
intentional interference with the enforcement of federal

C
law, and that is a crime. We cannot pick and choose the
federal laws we follow, or use our personal views to
justi'fy violating the law". The same criminal infractions
. are alleged by the plaintiff against Judge Woodlock. This
would appear to present a conflict of interest. Attorney
L

Lelling should be prosecuting Judge Woodlock, not defending
him. Defense Counsel at page 17 of his Memorandum
supporting his motion to dismiss argued:

w /

Generally, a

L
private citizen has no authority to initiate a federal
criminal prosecution r

rr

. If this is the law, it would be

Attorney Lelling who must prosecute Judge Woodlock.
5.

r
CLAIMS

r

Again, the plaintiff is net waiving any of his
claims. The plaintiff adds to and adopts the claims already
enumerated by this Court.

r
l.

The plaintiff claims Bivens, as he has exhausted all

his remedies. Paragraphs 57, 58, pages 22 and 23; also
C

see Defense Counsel''s Memorandum supporting his motion
to dismiss, at pages 1-5 (Background), in which he
meticulously sets out this "exhaustion of remedies"

(

in detail.
2.

The plaintiff has claimed 42 U.S.C. § 1983, as it

supplies the underlying avenue to be followed in his
(‘

federal Bivens claim.
3.
C

The plaintiff has asserted a claim pursuant to

Restatement (Second) of Torts § 682(1977)

for federal

criminal acts perpetrated by the defendants. Pages 9-11,
15, 16, 17-18, and 19-20. Judge Woodlock sua sponte
"waived" the plaintiff's due process claims mandating
disqualification (see pages 4-5 above), which were not
only criminal acts directed to the plaintiff, but was
L
harm inflicted to the protection of the integrity of the
judicial system, influencing issues that are broader
o

than the parties to the suit. See Chambers v. NASCO,
6.

c
Inc., 501 U.S. 32, 44 (1991).

r.

It is not the gravity of

the judicial error that counts, but that a violation of
the litigant's Constitutional rights has been
perpetrated. This must be seen as an "external factor",

C
imputed through Judge Woodlock to the U.S. District
Court for the District of Massachusetts. Cf. Holland v.
C

Florida, 560 U.S. 631, 657 (2010), citing Coleman v.
Thompson, 501 U.S. 722, 752,
4.

(

(1991).

Article III, Sec. 2, Clause 1 of the United States

Constitution and the Bill of Rights is a separate claim;
along with supporting the Bivens claim. Page 17.
5.

Violation of Article I, Sec. 9, Clause. 8, of the

C
United States Constitution and the Bill of Rights is a
separate claim; along with using to support the Bivens
C

claim. Page 21; also page 22.
6.

As federal jurisdiction was mandated, Judge

Woodlock violated his ministerial duty, subjecting him
L

to this civil action. Page 10. See #10 at page 8, below.
7.

The plaintiff presents a claim pursuant to the

Ninth Amendment to the U.S. Constitution; along with
L
using it to support the Bivens claim. Page 23.
8.

The plaintiff presents claims for intentional and

negligent infliction of emotional distress for his years
7.

f*

of stress since 2015. Page 23.
r*

9.

The plaintiff has a claim for damages pursuant to

28 U.S.C. § 1927. Paragraph 56, page 21; see also page
12 of the motion to dismiss memorandum.
10. The plaintiff has claims against the defendants
pursuant to 28 U.S.C. § 455(a)and(b), both as to
C

disqualification and recusal. See pages 4-5 above. Once
disqualified as a matter of law, Judge Woodlock was
devoid of "jurisdiction", thereby preventing his claims

C

of absolute immunity. Further, once disqualified, Judge
Woodlock could no longer make discretionary rulings, so
the argument as to judicial independence could no longer

(

be used to render him immune from suit, and making it
irrelevant as to whether his actions were taken
with malice, bias, or otherwise. Pages 12-15. These are
also being used in support of the Bivens claim.

Respectfully submitted,
L

9
Henry J. DuLaurence, III
Pro se
1 South Union Street, #114
Lawrence, MA 01843
(978) 208-1399
BBO# 137660

1

C,

Dated:

May 28, 2019
8.

r

Exhibit G
r

c

r

r
k.

*■

¥

4

0

r'
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

Henry J. DuLaurence, III

r

v.

Civil No. 1:18-cv11430-JL

,3
O

>r-

Judge Douglas.P. Woodlock,
Individually, and in his
Official Capacity

--o
oo

3

o

:d

o
n~

-ji

c-

c
Plaintiff-Appellant's Filing of His Amended
Notice of Appeal, as the District Court
Failed and/or Incorrectly Addressed the
Issues Raised in His Rule 59 and Rule 60
Motions. This is in Addition to His Original
Notice of Appeal Which Includes the Court's
Ruling on Absolute Judicial Immunity

C

The District Court denied the Rule 59 and Rule 60
motions on January 31, 2020. The appellant files this
Amended Notice of Appeal as to both defendants, Judge

4

Douglas P. Woodlock Individually; and Judge Douglas P.
Woodlock in his Official Capacity. The District Court has
L

rendered its decision, again setting out that the appellant
has no cause of action because he is barred by absolute
(

judicial immunity. The appellant set out in his Rule 59 and
1,
1.

5.....

O'-

/

r
Rule 60 motions that he has causes of action under many

r

different theories. The appellant argues that there must be
in place a structure for civil rights violations so as to
provide (1) effective deterrence of governmental

r

misconduct,

(2) compensation to individuals for violations

of their constitutional or statutory rights, and (3)

r

enforcement mechanisms that ensure compliance with the
constitutional and statutory norms. The District Court
further incorrectly stated that the District Court Clerk's

C

Office was incorrect when it set out that there were two
defendants. The District Court then dismissed the case as
to only one defendant, in violation of Rule 60.

C
The Court failed to address any of the other issues
the appellant had set out for the District Court prior to
C

that court's rendering its first decision of dismissal. The
Court cited Zenon v. Guzman, 924 F.3d 611 (1st Cir. 2019),
as support for its Rule 59 and Rule 60 rulings, a case

L-

which mostly relied on Stump v. Sparkman, 435 U.S. 349, 367
(1978), "A judge is not free, like a loose canon, to
inflict indiscriminant damage whenever he announces he is

L
acting in his judicial capacity", set out by Justice Potter
Stewart in the dissenting opinon, discussed.below at page
7. Zenon discusses Rooker-Feldman, but fails to address the
2.

p

fact that it has no application when a plaintiff alleges he

r

was denied procedural due process by conspiracy. Courts
have repeatedly recognized that real due process claims (as
opposed to claims that in substance merely complain about

r

state courts making a mistake) are not barred by RookerFeldman. See Great W. Mining & Mineral Co. v. Fox

r

Rothschild LLP, 615 F.3d 159, 173 (3d Cir. 2010), which
held Rooker-Feldman inapplicable where a plaintiff alleges
"a conspiracy to reach a predetermined outcome in a state

C

court". These are the same allegations this appellant made
in the underlying case. The appellant not only pleaded
these, but one can see by Judge Woodlock's actions and his

(

numerous comments in his rulings, that the plaintiff had
made these claims, which Judge Woodlock labeled as being

C

highly disrespectful. Judge Woodlock then failed to provide
procedural due process. Judge Woodlock did not like these
claims against those judges. His comments were such that he
knew the plaintiff was making these derogatory claims. At
that point in time, Judge Woodlock became disqualified as a
matter of law. 28 U.S.C. § 455(a).

U
If that wasn't enough, Judge Woodlock was vindictive
when he threatened the plaintiff with financial retribution
if the plaintiff attempted to appeal any of his.rulings.
3.

r
A due process claim that one has been injured by
C

inadequate or defective procedures is another "independent
claim" of the type to which the Supreme Court was referring
to in Exxon Mobil Corp. v. Saudi Basic Industries Corp.,

r

544 U.S. 280, 293 (2005).
The appellant, requests the Appeals Court to remand

r

and instruct the lower court to determine on a claimby-claim basis why none of the appellant's claims are
viable, and its reasons therefore.

f

First, the District Court stated that Judge Woodlock
was the only defendant. Judge Woodlock is a defendant,
first as an individual, and also in his official capacity

(

for the United States District Court. This second claim is
the only way to implicate the United States Government, as
C

it is otherwise immune from suit. The District Court
stated: "In docketing the case, the court incorrectly
identified the U.S. District Court for the District of
Massachusetts as a second defendant". In the United States,
the federal government has sovereign immunity and may not
be sued unless it has waived its immunity or consented to
suit. Title 28 U.S.C. § 1331 confers federal question
jurisdiction on district courts, but is not a blanket
waiver of sovereign immunity on the part of the federal
4.

r
government. A claimant may sue an official who used his or
her position to act illegally, to be sued in his or her
official capacity, as in the instant case. The courts have
called this the "stripping doctrine". Therefore, a claimant

r
may sue an official under this "stripping doctrine" and get
around any sovereign immunity that official might have held

r

with his or her position. When a claimant uses this
exception, the government cannot be included in the suit;
instead, the name of the individual defendant is listed.

f

Hence, here, two defendants. Although not clear, the
District Court apparently only granted Judge Woodlock
immunity in his individual capacity. The issues set out in

<

the Rule 59 and Rule 60 motions which relate to Judge
Woodlock's acting in his official capacity must be

e

addressed.
Another issue the appellant set out as one of his
claims was that of alleged criminal conduct perpetrated by

C

Judge Woodlock, both in his individual and in his official
capacity, causing injury. 18 U.S.C. § 242 and 18 U.S.C. §
1505. The appellant has alleged "guild favoritism" as set
out by Justice Breyer in the appellant's district court
opposition to dismissal, where recusal by Judge Woodlock
was reguired. Then, any actions taken by him were void ab
5.

initio, and therefore the issue of "judicial function"

r

cannot not be considered in the first /place.
The appellant has claimed the federal equivalent of
42 U.S.C. § 1983, Bivens v. Six Unknown Named Agents, 403

r

U.S. 388 (1971), in which one must prove that a
Constitutionally protected right has been violated.

C

Under Bivens, and 18 U.S.C. § 242, the federal courts may
recognize a cause of action for damages against an
individual personally for unconstitutional conduct

C

committed by the individual as a federal official acting
under the color of law. Id. at 392-397. See Corn. Servs.
Corp. v. Malesko, 534. U.S. 61, 66, 122 S. Ct. 515 (2001);

(

Browning v. Clinton, 352 U. S . App. D. C . 4 , 292 F.3d 235, 250
(D.C. Cir. 2002) .
(

'Under color of law authority' is a legal

phrase indicating that a person is claiming or implying the
acts he or she is committing are related to and legitimized
by his or her role as an agent of governmental power,

C

especially if the acts are unlawful. The deprivation of
rights under color of law is a federal criminal offense
which occurs when any person under color of any law or
statute, willfully subjects any person to the deprivation
of any rights or privileges secured or protected by the
Constitution or laws of the United States. Color of law may
6.

r
include public officials and non-government employees who

r

are not law enforcement officers, such as judges. See 18
U.S.C. § 242, 18 U.S.C. § 1505, and other federal statutory
criminal claims by the appellant. See also 28 U.S.C. §

r
455a, based on due process, pursuant to which a judge who
refuses recusal may be further reprimanded or disciplined.

r

This makes any decisions rendered by the judge void ah
initio.

Some of the appellant's claims have nothing to do

r

with judicial undertakings by a judge. Again, in the
dissenting opinion in Stump v. Sparkman, 435 U.S. 349, 365369 (1978), Justice Potter Stewart stated: "A judge is not

(

free, like a loose cannon, to inflict indiscriminant damage
whenever he announces that he is acting in his judicial
C

■ capacity." Id. at 367. The appellant claims Section 1983 of
the Civil Rights Act of 1871, underlying Bivens, which gave
citizens a recourse when they are wronged by federal
government. The claimant claims 28 U.S.C. § 1927 damages.
The appellant claims intentional and negligent infliction
of emotional distress since 2015. The appellant claims

C
other damages pursuant to Bivens and.the Ninth Amendment,
along with other Constitutional claims, such as Article III
and Article I, Sec. 9, Clause 8 of-the Bill of Rights and
7.

r
the United States Constitution. The dismissal of the

r

appellant's case based on absolute immunity is untenable in
face of all the Constitutional issues involved. There has
to be some accountability somewhere.

r
Respectfully submitted,

r
Henry J. DuLaurence, III
1 South Union Street, #114
Lawrence, MA 01843
(978) 208-1399

c
Dated: February 24, 2020
C

c

c

L

8.

■(*

Exhibit H
c

t

c

**■

r

United States Court of Appeals

C

For the First Circuit
No. 15-1537

r

HENRY J. DULAURENCE, III,
Plaintiff, Appellant,
v.

C

ARTHUR G. TELEGEN; LIBERTY MUTUAL INSURANCE COMPANY
Defendants, Appellees.

r

Before
Howard, Chief Judge,
Thompson and Kayatta, Circuit Judges.

C

JUDGMENT
Entered: November 30, 2016
C

The district court dismissed plaintiff-appellant Henry J. DuLaurence, Ill’s amended
complaint on the basis of lack of subject matter jurisdiction and res judicata. In addition, the
district court denied DuLaurence's motion for leave to proceed in forma pauperis (IFP) because it
concluded that DuLaurence's appeal was not taken in good faith. See 28 U.S.C. § 1915(a)(3).

G

DuLaurence now seeks IFP status in this court. Good faith for purposes of § 1915(a)(3) is
judged by an objective standard; i.e., whether the litigant "seeks appellate review of an.}/ issue not
frivolous." Coppedge v. United States, 369 U.S. 438, 445 (1962). We assume without deciding,
for purposes of granting IFP status, that DuLaurence's claims are non-frivolous. Nevertheless , we
have carefully reviewed the record and the issues on appeal set forth in DuLaurence's affidavit in
support of his IFP motion, and it clearly appears to this court that the appeal presents no substantial
question.

G

G

G

To the extent DuLaurence's federal court amended complaint sought to vacate the state
court judgments in DuLaurence v. Liberty Mut. Ins. Co.. 74 Mass.App.Ct. 1125, 909 N.E.2d 558
(2009), or DuLaurence v. Telegen, 83 Mass.App.Ct. 1101, 978 N.E.2d 237 (2012), the district
court properly found such an attempt barred under the Rooker-Feldman doctrine. See Exxon
MobjlCorp. v. Saudi Basic Indus. Corn,. 544 U.S. 280, 284 (2005); Miller v. Nichols 586 F 3d
53, 59 (1st Cir. 2009).

r

r

r

Furthermore, the factual issues underpinning DuLaurence's federal court lawsuit concern
discovery disputes in the state court employment action that were addressed in a final decision on
the merits in DuLaurence v. Liberty Mut. Ins, Co., supra, 74 Mass.App.Ct. 1125 at *1, 909 N.E.2d
558 at *1. The district court's dismissal on res judicata grounds was, thus, also appropriate, even
though they involved different ultimate claims. See Miller, 586 F.3d at 60-61; Bellermann v.
Fitchburg Gas and Elec. Light Co., 470 Mass. 43, 61, 18 N.E.2d 1050, 1066 (2014) (citation
omitted).
Accordingly, the motion for leave to proceed IFP is granted. The motion to expedite,
petition for hearing en banc, and motion to recuse, strike, and remand are denied as moot. The
district court judgment is affirmed. See 1st Cir. R. 27.0(c).

C

By the Court:
/s/ Margaret Carter, Clerk

f

(

6,

L

O

C

cc:

Henry DuLaurence, III
Erik Weibust

f*

Exhibit I
f

f

r

r
APPENDIX A

United States Court of Appeals
C

For the First Circuit

\

No. 15-1537

r

HENRY J. DULAURENCE, III
Plaintiff, Appellant,
v.

f
ARTHUR G. TELEGEN; LIBERTY MUTUAL INSURANCE COMPANY,
Defendants, Appellees.
C

Before
Howard, Chief Judge.
Thompson and Kayatta, Circuit Judges.

C

ORDER OF COURT
Entered: January 5, 2017
(,

The petition for reconsideration, which we construe as a petition for rehearing, having been
denied by the panel of judges who decided the case, it is ordered that the petition for rehearing be
denied.
By the Court:

C

V,

C,

)
V

/s/ Margaret Carter, Clerk
cc:
Erik Warren Weibust
Henry J. DuLaurence, III

j

r

r

if-

r

Exhibit J

r

United States Court of Appeals

C

For the First Circuit
No. 15-1537

C

HENRY J. DULAURENCE, III,
Plaintiff - Appellant,
v.

C

ARTHUR G. TELEGEN; LIBERTY MUTUAL INSURANCE COMPANY,
Defendants - Appellees.
C

Before
Howard, Chief Judge.
Thompson and Kayatta, Circuit Judges.

r
ORDER OF COURT
Entered: October 12, 2017
C

c

Because mandate had already issued by the time appellant filed the Motion to Vacate
Judgments Pursuant to Rule 60(b), and Title 28 U.S.C. § 455, we treat the motion as one seeking
to recall the mandate. So construed, we deny it because no "extraordinary circumstances" have
been shown justifying recall of the mandate. See Kashner Davidson Sec. Corp. v Mscisz, 601 F.3d
19, 22 & n.4 (1st Cir. 2010) (noting that court exercises power to recall mandate "sparingly").

By the Court:
/s/ Margaret Carter. Clerk

C

cc:
Henry J. DuLaurence III
Erik Warren Weibust
L

Exhibit K

r

r

United States Court of Appeals

c

For the First Circuit
r

No. 15-1537
HENRY J. DULAURENCE, III,
Plaintiff, Appellant,

r

V.

ARTHUR G. TELEGEN; LIBERTY MUTUAL INSURANCE COMPANY,
Defendants, Appellees.
f

Before
Howard, Chief Judge.
Thompson and Kayatta, Circuit Judges.
ORDER OF COURT
Entered: November 29, 2017
C

Appellant's petition for rehearing and rehearing en banc, which we construe as a motion
for reconsideration of this court's October 12, 2017 order denying appellant's motion to recall the
mandate, is denied.
By the Court:

L-

/s/ Margaret Carter. Clerk
cc:

Henry DuLaurence, III
Erik Weibust

r

Exhibit L

Vf

r

k.

f

t

t-

r

r

r

c

r

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

HENRY J. DULAURENCE, III
190 Bridge Street, #5308
Salem, Massachusetts 01970
Plaintiff

r

(

V.

MASSACHUSETTS DISTRICT COURT JUDGE DOUGLAS
P. WOODLOCK, individually and in his official capacity, U. S.
DISTRICT COURT for the DISTRICT of MASSACHUSETTS,
Federal Courthouse, 1 Courthouse Way, Boston, Massachusetts 02210
Defendant
CIVIL RIGHTS COMPLAINT-42 U.S.C. § 1983;
28 U.S.C. § 455; 28 U.S.C. § 1331; 18 U.S.C. § 242;
18 U.S.C. § 371; 18 U.S.C. §§ 1503, 1505;
Restatement (Second) of Torts § 682 (1977); Article
III, Sec. 2, and Article I, Sec. 9, Clause 8 of the
United States Constitution, and the Bill of Rights, with
Bivens v. Six Unknown Named Agents, 403 U.S. 388
(1971) Constitutional tort claim; Ninth Amendment to
the United States Constitution.

(

C

Civil Docket No.
C

The plaintiff is pro se
(978) 740-0098
VERIFIED COMPLAINT
COMPLAINT AND JURY DEMAND

C

There is no other civil action between these parties arising
out of the same transaction or occurrence as alleged in this
Complaint pending in this Court, nor has any such federal
action been previously filed between these parties.

NOW COMES Plaintiff, pro se, and for his Complaint against Judge Douglas P.
Woodlock, hereby states as follows:
1.

r
CM/'ECF - USDC Massachusetts - Version 6.2.2 as of 2/9/2019

Page I of 6

r

APPEAL

United States District Court
District of Massachusetts (Boston)
CIVIL DOCKET FOR CASE #: l:18-cv-.11430-JL

r

r

DuLaurence, III v. Woodlock et al
Assigned to: Judge Joseph Laplante
Case in other court: USCA. - First Circuit. 19-01905
USCA - First Circuit, 20-01254
Cause: 28:1331 Fed. Question

■x

Date Filed: 07/10/2018
Date Terminated: 08/20/2019
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

Plaintiff
Henry J. DuLaurence, III
f

(

represented by Henry J. DuLaurence, HI
1 South Union Street #114
Lawrence, MA 01843
978-208-1399
PRO SE

V.
Defendant
Judge Douglas P. Woodlock
individually and in his official capacity

C

C

represented by Christopher L. Morgan
United States Attorney's Office
Suite 230
United States Courthouse
300 State St.
Springfield, MA 01105
413-785-0269
Email: christopher.morgan2(«)usdoj.gov
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Defendant
C

L,

U.S. District Court
for the District ofMassachusetts

Date Filed
07/10/2018

#

Docket Text

represented by Christopher L. Morgan
(See above for address)
LEAD ATTORNEY
A TTORNEY TO BE NOTICED

1
—I

COMPLAINT against All Defendants, filed by Henry J. DuLaurence, 111.
j
(Attachments: # 1 Civil Cover Sheet and Category, # 2 Exhibit A. # 3 Exhibit B, j
# 4 Exhibit C, # 5 Exhibit D. # 6 Exhibit E. # 7 Exhibit F. # 8 Exhibit (}, # 9
:
Exhibit H, # H3. Exhibit l)(Coppola, Katelyn) (Entered: 07/10/2018)

r

r

r

United States Court of Appeals
For the First Circuit

r

Nos .

19-1905
20-1254
HEHRY J. DULAURENCE,

(

III,

Plaintiff - Appellant,
v.

t

JUDGE DOUGLAS P. WOODLOCK, individually
and in his official Capacity,
Defendant - Appellee.

C

APPEAL

C

APPENDIX
Henry J. DuLaurence, III
1 South Union Street, #114
Lawrence, MA 01843

<p-

;

(P-

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS

r

HENRY J. DULAURENCE, Hi
190 Bridge Street, #5308
Salem, Massachusetts 01970
Plaintiff
v.

f

{

CIVIL RIGHTS COMPLAINT
(42 U.S.C. Sec. 1983: 28 U.S.C. Sec. 455;
18 U.S.C. Sec. 1503; 18 U.S.C. Sec. 1512(c);
18 U.S.C. Sec. 1512(k); 28 U.S.C. Sec. 1927)

ARTHUR. G. TELEGEN
Seyfarth, Shaw LLP
Two Seaport Lane, Suite 300
Boston, Massachusetts 02110

Civil Docket No. l:14-cv-12349-DPW

AND

C

LIBERTY MUTUAL INSURANCE CO.
175 Berkeley Street
Boston, Massachusetts 02116
Defendants.

C

The plaintiff is pro se
(978) 740-0098
The defendant Arthur Telegen was last pro se
(U.S. Supreme Court)
(617) 946-4800
The defendant Liberty Mutual Insurance Co. was last
represented by Arthur Telegen (U.S. Supreme Court)
(617) 946-4800

VERIFIED COMPLAINT

c

28.
119. Superae Court Justice Stephen Breyer in his September, 2006, Implementation of

r

r

the Judicial Conduct and Disability Act of 1980-A Report to the ChiefJustice, stated:
The federal judiciary, like all institutions, will sometimes sufiei
instances of misconduct... [A] system that relies for investigation
solelv upon judges themselves risks a kind of undue guild favoiitism
through inappropriate sympathy with the judge s point ot view 01 de­
emphasis of the misconduct problem. Id. at page 1.
120. The Code of Judicial Conduct, Canon 1, “Integrity of the Judiciary":

(

Commentary.. .(Judges) must comply with the law...[Violation
of this Code diminishes public confidence in the judiciary and thereby
does injury to the system of government under the law.
Judicial abuse must be adequately sanctioned. Chambers v. Masco, Inc., 501 U.S. 32

c

(1991). “While review after final judgment can (at a cost) cure the harm to the
litigant, it cannot cure the additional, separable harm to public confidence that
sec. 455 is designed to prevent". In re Sch. Asbestos Litig., 977 F.2d 764, 776 (1992).

c

121. Evidence shows that Panel One knew before oral argument, by reading the
plaintiffs Brief, that Telegen had perpetrated violations of the Ethics rules. "Fraud

c

upon the court” denies one due process of redress under the Fourteenth Amendment;
the courts must “’set aside fraudulently begotten judgments... necessary to the
integrity of the courts for tampering with the administration of justice... [It]

c

involves more than an injury to a single litigant. It is a wrong against the institutions
set up to protect and safeguard the public.. .’[A] court has the power to conduct an
independent investigation to determine whether it has been a victim of fraud .
(Citations omitted.) Chambers v. Nasco, 501 U.S. 32, 44 (1991).
122. Some Ethics and criminal violations were inquired in to by the Appeals Court

r

r

29.
(panel one) justices. The panel should have decided on any cover-up prior to oral
argument. The following is set out in the oral argument transcript:

C
a. The Court asked Telegen why he had not produced court ordered employee
handbooks, which is basic discovery in employment cases for the determination of
r

“employee at will”, or “contract” employee: LeMaitre v. Massachusetts Turnpike
Authority, 70 Mass. App. Ct. 634, 638, 876N.E.2d 888, 892 (2007); O’Brien v. New
England Tel. & Tel.Co., 422 Mass. 686, 691, 664 N.E.2d 843, 847 (1996): “THE

(

COURT: Why didn’t you turn over the employee handbook?”
b. The Court asked why Telegen did not answer requests for admissions or
interrogatories as required by the Massachusetts Rules of Civil Procedure, basic to

C

discovery in any case: “THE COURT: Now Counsel (Telegen), you mention that
there were a certain number of interrogatories asked and a certain number of
C

admissions asked for. in a typical lawsuit that’s not necessarily a large number.”
c. The Court asked why he had not turned over court ordered salary discovery, basic
discovery in employment cases to determine age discrimination by “disparate

L

impact”—Smith College v. Mass. Comtn’n Against Discrimination, 376 Mass. 221,
380 N.E.2d 121 (1978); by “disparate treatment”; and to determine “damages”—

L

Boothby v. Texon, Inc., 414 Mass. 468 (1993): “Mr. Telegen: Your Honor, we were
asked for salaries of all our employees which wasn’t turned over.”
d. The Court inquired as to Telegen’s failure to comply with a court order denying

Lx

his Motion for a Protective Order as to a defendant and senior vice-president of
Liberty Mutual’s Legal Department, who had been noticed and re-noticed for a

r

r

30.

deposition three times during the six months prior thereto, felegen's misdirection
why he had failed to comply with the order denying his “Motion For Protective

r
Order”, lying to the Appeals Court, stating that the judge had “denied the motions to
compel...For all he knows, it may have thought it was Mr. DuLaurence’s’s motion”.

r

123. These Ethics violations, criminal acts, and failure to produce even the most
basic of employment discovery were prejudicial to the effective and expeditious
administration of the business of the courts and the proper administration of

c

justice, and certainly had been “identified”. It would take a book to recount all the
misrepresentations and abuses perpetrated by the defendants. As the Appeals Court

r

stated in its Memorandum And Order, the plaintiff did attempt to write a book: “This
record appears to contain over 3,000 pages of pleadings”. The Court stated:

c

He contends that Liberty Mutual engaged in a pattern of
withholding information necessary to prove his claims and
lists various motions in his brief at pages 3-11 and 21-31.
Similarly, the defendants comment on the discovery process
in their brief at pages 3-5, highlighting instances of
dissatisfaction with the plaintiffs motions. It is unnecessary
to enter this thicket.

L

The Court failed to state that the “dissatisfaction” was caused by the many
misrepresentations, and criminal and Ethics violations set out in that “book”, and in
the plaintiffs Amended Complaint in the anti-Slapp case (Exhibit I). “[A] party may
be sanctioned for abuses of process occurring beyond the courtroom, such as
disobeying the court’s orders”. (Emphasis added.) Chambers v. Nasco, 501 U.S. 32,
v_.

57 (1991). A violation of a court order is a “criminal contempt...outside the
presence of the court, and may consist of a willful and knowing disobedience of a

31.

court order or an act which... obstructs or impedes the administration of justice'’.
(Emphasis added.) Avelino-Wright v. Wright, 51 Mass. App. Ct. 1, 5-(2002). 28
r

U.S.C. sec. 1927; 42 U.S.C. sec. 1983; 18 U.S.C. sec. 1512(c)(2), and sec. 1503.
124. Other evidence that a cover-up was devised after oral argument, showing Panel
f

One had read the briefs prior to it, requiring recusal pursuant to 18 U.S.C. sec.
455(a) and sec. 455(b)(1); and illegal conduct pursuant to 42 U.S.C. sec. 1983,
and 18 U.S.C. sec. 1512(c)(2), involved evidence addressed for age discrimination:
THE COURT (to Telegen): This is, you don’t address this in your brief.
This is at page 1299 of the appendix, that’s the (direct) evidence. Why
isn’t that sufficient to send the claim of age discrimination to the jury,
even if the heresay evidence can’t be considered? (Emphasis added.)
The Appeals Court then ruled in its written decision:
The judge properly rejected this evidence as heresay inappropriate for
summary judgment. The only argument the plaintiff advances on appeal
is that the heresay statements are admissible as vicarious admissions.

9.

This is certainly opposed to what the panel obtained from the petitioner’s Brief when
addressing the issue in oral argument, “even if the heresay evidence can’t be

C

considered.” The subsequent decision carefully addressed heresay, but never
acknowledged the direct evidence. What happened to “page 1299 of the
appendix” which the Appeals Court at oral argument recognized as being set
out in DuLaurence’s Brief?
125. Another ruling by the Appeals Court against legal authority pertains to the
special jury verdicts, and “immediate supervisor” law. The petitioner was denied his
verdict on liability against Liberty Mutual. The Appeals Court (panel one) ruled:
The plaintiff cites no authority to the effect that a finding of malice

r

r

r

32.

on the part of an employee (not immediate supervisor] is binding
on the employer, particularly where, as the jury found, Latronico
was acting in Liberty' Mutual’s legitimate corporate interests.
(Emphasis added.)
The U.S. Supreme Court took considerable time and effort to render three rulings on
“immediate supervisor law” and “vicarious liability”: Burlington Industries, Inc. v.

r
Ellerth, 524 U.S. 742, 118 S. Ct. 2257 (1998); Faragher v. City ofBoca Raton, 524
U.S. 775, 118 S. Ct. 2275 (1998), and Crawford v. Metropolitan Government oj
(

Nashville And Davidson County Tennessee, 129 S. Ct. 846, 72 L. Ed. 650 (2009).
“Abuse (ofjudicial discretion) occurs when a material factor deserving significant
weight is ignored, when an improper factor is relied upon, or when all proper and no
improper are assessed, but the court makes a serious mistake in weighing them”.
Aoude v. Mobil Oil. 852 F.2d 1115, 1118 (1st Cir. 1989).
126. Further, the Appeals Court (panel one) upheld Judge Ball’s allowance of

O

Defendant John Allen’s motion for a directed verdict “for the reasons stated in (his)
motion”. His argument was that he had retired one month prior to the plaintiffs 3
L

month probation, and w'as no longer employed by Liberty Mutual when the
plaintiff was terminated. The Appeals Court ruled that “the evidence at trial was
insufficient for the jury to conclude that he took any actions leading to the plaintiffs

Vk

termination”. Evidence at trial showed that the “plan” to terminate the plaintiff was
put in place in November, 1994, months prior to his retirement. Further, the case
against Allen was not for “wrongful termination”, but was for damages caused by
his harassment and causing a hostile work environment, leading to an “adverse
employment action”, of which termination is only one. Noviello v. City of Boston,

r

r

oo

J J.

398 F.3d 76 (1st Cir. 2005). The Appeals Court failed to read the trial testimony
which was a portion of the 3400 page Appendix, evidencing “That he was thwarted
C
by Allen at every opportunityT..(and) only offers his allegations (the trial testimony)
that Allen did not approve bonuses or raises and subjected the plaintiff s expense

r

accounts to audit” (no other had been so subjected, and it had been just prior to the
“plan”). DuLaurence was prevented the deposition to determine who was involved in
“the plan”- paragraph 80. Allen, a mid-level corporate legal manager in charge of

i

pay raises, was jealous of the plaintiff performing work for the CEO on the executive
floor. Allen had the plaintiff audited in an attempt to prove that the plaintiff was
stealing from the Company, to avoid placing him on a three month probation before
terminating him. This probation was mandated by the employment manual for one
with 10 years or more of employment. It would also have denied him severance pay

c

based on 28 years of employment. This trial testimony by Helen Sayles, who had
written the manual, and whose deposition had been prevented by the defendants’
harassment arguments and misrepresentations of prior court orders, showed that the

c
plaintiff was not an “at-will” employee. See paragraphs 73-80.
127. The Trial Court for the quantum meruit claim in the employment case:
[T]he only evidence the plaintiff offers in support of this
are his own allegations in affidavits and depositions. There
simply is no evidence that the defendants requested or
authorized the plaintiffs participation in outside activities.
To the contrary, the record contains evidence of the defendants’
displeasure with the plaintiffs performance and lack of focus
on his trial responsibilities.
Although the plaintiff was denied the deposition of the CEO because, as the

r>>

P
34.

defendants argued, this was merely an attempt at harassment, the Appendix and tire
his opposition to the motion for a protective order included checks made out to the
plaintiff for his Company public relations services in helping the Company sponsor
major national events, like a Noonan Rockwell PBS Thanksgiving one hour special
f

out of Boston and New York; testimony from mid-manager John Allen that he was
doing work for the Company at the behest of the CEO to save the Company money
in its real estate transactions; and deposition testimony from the head of Liberty

(

Mutual’s Legal Department Christopher Mansfield that he was doing Compliance
work for the CEO and the Company Secretary. There was also the deposition
testimony of Mansfield that the plaintiff was asked by him to do some important
legal work in Texas and California, in an attempt to save the Company money. The
plaintiff had worked in Home Office performing such work prior to going to the trial
A

department. Mansfield also had set up a system which would allow him to be paid
for this extra work. All this was in the plaintilfis Appendix. As stated above, Allen
was jealous

of the plaintiff working with those above him, and caused “adverse

eraployment actions” to be taken, the subject of the individual suit against him. The
Trial Court failed to recognize that John Allen was not the Company, and those
above him that were the Company had asked him to perform these duties for the
betterment of the Company. The Appeals Court simply ruled:

In opposing the

second motion for summary judgment, the plaintiff failed to provide evidence
satisfying the elements of a quantum meruit claim . In the fiist place, the above
evidence was misconstrued by the Trial Court, and had been piovided to both courts

r

r

35.

in argument and the Appeals Court Appendix. Further, the plaintiff was improperly

r

deni ed the deposition of the CEO for the proof of this. There was, however,
Mansfield's deposition testimony which supported the elements of this claim.
128. In the employment case, DuLaurence sought damages pursuant to Mass. Gen. L.

C

Ch. 15IB, sec. 4, 4(A), retaliation for testifying in a Human Resources hearing for
Latronico's (the plaintiffs immediate supervisor) former secretary against him for
sex discrimination and harassment. DuLaurence attempted to obtain that information

(

by Liberty Mutual 30(b)(6) and Helen Sayles depositions, ordered to go forward in
April, 1997. Telegen had the 30(b)(6) order vacated by Judge Ball two months later
C

after she was assigned to the session, as “Liberty Mutual has proved to the Court on
numerous occasions that. ..the information he seeks is irrelevant, and that he seeks to
take the deposition(s) only to harass his former employer”. By 2009, after Judge Ball

C

had ruled: “In any event, testifying on behalf of an employee in a civil suit does not
implicate a well established public policy which could form a basis for a wrongful

C

discharge, unlike, for example, cooperating with law enforcement authorities
investigating illegal conduct on the part of an employer”. This is exactly what, is set
out as actionable in Ch. 151B, sec. 4, 4(A). The defendants lied in their brief to the

G

Appeals Court, that DuLaurence failed to plead this, even though it had not only been
pleaded, but accepted as a claim by the MCAD. Further, after successfully arguing to
Judge Ball that these depositions were only noticed to harass the defendants, they
then got to argue, “[Tjhere is no evidence that either DuLaurence or Latronico’s
secretary ever asserted a claim of gender discrimination or sexual har^ssipent.

Vw

r

r

36.'
whether internally or with the MCAD”. The Appeals Court (panel one) at oral

r

argument understood that the plaintiff had pleaded it. even though argued otherwise
by the defendants: “THE COURT: ‘Did you file an MCAD charge?'...MR.
DULAURENCE: ‘Yes’.. .THE COURT: Tm asking about retaliation for the sexual,

C

assisting the secretary with her sexual harassment claim’”. The Appeals Court later
failed to even mention this claim in its decision.
129. Using the “clearly erroneous”'standard for judicial abuse of discretion, the

C

errors were evident, obvious, and clear so as to likely affect the outcome in a
significant way. United States v. Olano, 507 U.S. 725, 732 (1993).
C

130. As set out above, the Appeals Court (panel one) violated its duties and the
Constitution, so it lacked jurisdiction pursuant to 28 U.S.C. sec. 455(a) and sec.
455(b)(1). A judgment is void under Rule 60(b)(4) if it is entered in a manner

C

inconsistent with due process. Wendt v. Leonard, 431 F.3d 410, 413 (4th Cir. 2005).
Any judgments or rulings made by it must be rendered void as a matter of law.
131. Both Appeals Court panels exhibited conduct which “would entertain

U

reasonable questions about...impartiality”. Liteky v. U.S., 114 S. Ct. 1147, 1162
(1994). Judges must follow the law. ‘What really matters is the appearance of bias or
h

c.

prejudice’. Liljbergv. Health Services Acquisition Corp., 486 U.S. 847, 108 S. Ct.
2194; United States v. Balistrieri, 779 F.2d 1191 (7th Cir. 1985). ‘Should a judge not
disqualify him or herself) then a judge is in violation of the Due Process Clause of
the U.S. Constitution’. United States v. Sciuto, 531 F.2d 842, 845 (7th Cir. 1976).
“Lack of jurisdiction” means an entire absence of power to hear or determine a case,

r

r

37.

the absence of authority over the subject matter or the parties. People, v. Medina, 89
Cal. Rptr.Sd 830. 171 Cal App. 4th 805, as modified, and rehearing denied, and
C
review denied (Cal. App. 1 Dist. 2009).
132. The full extent of the judges’ actions which question their impartiality were not
C

revealed until the Appeals Court (panel two) rendered its anti-Slapp ruling, which
had nothing to do with the law on any issue. See e.g. United States v. Microsoft
Carp253 F.3d 34, 108-109 (D.C. Cir. 2001). This further evidenced the vendetta,

(

28 U.S.C. sec. 455(b)(1), the courts vvere perpetrating, retaliating for the plaintiff
alleging Judge Ball had abused her discretion in the employment case. The Courts’
rulings did not come close to dispensing justice, their Constitutional obligation.

(

COUNT SEVEN
Rules of Civil Procedure 60(b)(4)—Anti-Slapp Judgment(s) are Void
Title 28 U.S.C. Sec. 455(a), (b)(1) Appeals Court Panel Two —both defendants
C

133. The plaintiff hereby re-alleges and incorporates by reference, as if fully set
forth and restated herein, paragraphs 1 through 311, and particularly paragraphs 40
C

through 43, paragraphs 112 through 132, and paragraph 91.
j

134. As set out above, the anti-Slapp rulings rendered by the Appeals court (panel
two) were “clearly erroneous”. They had nothing to do with any Massachusetts or
V

other jurisdiction case law on any of the issues, rendering the rulings and judgments
void. The panel went out of its way to uphold the defendants’ frivolous anti-Slapp
motion (Mass. R. Prof C. 3.1; Mass. Gen. L. sec. 6F); and allow for the defendants’
28 U.S.C. sec. 1927 violations. The Appeals Court’s reliance on Cadle Company v.
Schlichtmcmn, 448 Mass 242 (2007), supporting the defendants’ contentions that this

r

r

38.
was “protected petitioning activity”, is diametrically opposed to that cited Court’s

C

.ruling: “[Ajggressive lawyering of this sort is not protected petitioning”. Id. at 254.
[A]n attorney may not claim protection of the anti-Slapp statute for.. .publishing
statements (in violation of Ethics rules)... in hopes of ...gaining an advantage in an

C

ongoing legal proceeding”. Id See paragraph 45(f) above.
COUNT EIGHT

(

Rules of Civil Procedure 60(b)(6)—Other Reason(s) That Justify Judgment Relief
Independent Action—both defendants
135. The plaintiff hereby re-alleges and incorporates by reference, as if fully set
forth and restated herein, paragraphs 1 through 134; particularly paragraphs 46

C

through 86, and paragraphs 111 and 144.
136. As stated throughout, the plaintiff has been denied any semblance of receiving

t

his “day in court”. He has been subject to the misconduct of the defendants; and
misconduct by the Trial Court and Appeals Court judges, including conduct by panel
one of the Appeals Court which would constitute one or more grounds for

C

impeachment under Article II of the United States Constitution.
137. Stated in the Reporter’s Notes: “Rule 60(b)(6) contains the residual clause,
giving the court ample power to vacate a judgment whenever such action is
appropriate to accomplish justice”.
138. “A time trial on the merits can never be held.. .unless each party is afforded
adequate discovery. Where one party has prevented even minimum discovery, he
forfeits the right to trial on the merits”. Litton Business Tel. Systems, Inc. v.
Schwartz, 13 Mass. App. Ct. 113, 118, 430 N.E.2d 862, 865 (1982). Paragraph 111.

£

e

Exhibit M

!
I

!0

€
I

’

D

V

V

:N
•*

i

f

\

I
i

i

0

r
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
HENRY J. DULAURENCE, III
190 Bridge Street, #5308
Salem, Massachusetts 01970
Plaintiff

C
v.

C

MASSACHUSETTS DISTRICT COURT JUDGE DOUGLAS
P. WOODLOCK, individually and in his official capacity, U. S.
DISTRICT COURT for the DISTRICT of MASSACHUSETTS,
Federal Courthouse, 1 Courthouse Way, Boston, Massachusetts 02210
Defendant
CIVIL RIGHTS COMPLAINT-42 U.S.C. § 1983;
28 U.S.C. § 455; 28 U.S.C. § 1331; 18 U.S.C. § 242;
18 U.S.C. § 371; 18 U.S.C. §§ 1503, 1505;
Restatement (Second) of Torts § 682 (1977); Article
III, Sec. 2, and Article I, Sec. 9, Clause 8 of the
United States Constitution, and the Bill of Rights, with
Bivens v. Six Unknown Named Agents, 403 U.S. 388
(1971) Constitutional tort claim; Ninth Amendment to
the United States Constitution.

C

C

Civil Docket No.
The plaintiff is pro se
(978) 740-0098
VERIFIED COMPLAINT

C

t

COMPLAINT AND JURY DEMAND
There is no other civil action between these parties arising
out of the same transaction or occurrence as alleged in this
Complaint pending in this Court, nor has any such federal
action been previously filed between these parties.

NOW COMES Plaintiff, pro se, and for his Complaint against Judge Douglas P.
Woodlock, hereby states as follows:

7a.

r

JURISDICTION AND VENUE
1. Plaintiff brings this action under the Ninth Amendment to the U. S. Constitution
—Civil Action for Deprivation of Rights, for certain protections guaranteed to him

C
“secured by the Constitution and laws”, the Bill of Rights, and Due Process.
2. Plaintiff brings this action pursuant to Bivens v. Six Unknown Named Agents, 403
C

U. S. 388 (1971)—an implied private right of action for monetary damages against
federal officials who have violated a plaintiff s Constitutional Rights, where no other
remedy is provided; here, the remedy “though adequate in theory, was not available

r

in practice”. Zinermon v. Burch, 494 U.S. 113, 124-126 (1990); 42 U.S.C. § 1983.
3. Plaintiff brings this action under Title 18 U.S.C. §§ 242, 1503, and 1505—
deprivation of rights “under color of law”—Restatement (Second) of Torts § 682.

(

4. Plaintiff brings this action under Title 18 U.S.C. § 371—“conspiracy”.
5. Plaintiff brings this action under Article I, Sec. 9, Clause 8, U. S. Constitution.

c

6. Plaintiff brings this action under Title 28 U.S.C. § 455(a), failure to recuse.
7. This Court has jurisdiction pursuant to the following:
a.

G

Federal jurisdiction pursuant to Article III Sec. 2, which extends

jurisdiction to cases arising under the U. S. Constitution and Bill ol Rights;
b.

C

)

28 U.S.C. Sec. 1331, which gives district courts original jurisdiction

over civil actions arising under the Constitution, laws or treaties of the United States;
c.

28 U.S.C. Sec. 1343 (3) and (4), which gives the district courts

jurisdiction over actions to secure civil rights extended by the U. S. Government;

c

8. This Court has supplemental jurisdiction pursuant to Title 28 U.S.C. Sec. 1367.
2.

11a.
Gy

r
9.

Venue is appropriate in this judicial district under 28 U.S.C. Sec. 1391( b

because the events that gave rise to this Complaint occurred in this district.
PARTIES

r

10. Plaintiff is a citizen of the United States and resides in the County of Essex
State of Massachusetts, which is in this judicial district.

r

11. Defendant Douglas P. Woodlock is a justice of the U. S. District Court

i
k:.

for the District of Massachusetts, and sued in his official and personal capacity. such, he has the duty to insure that an individual’s Constitutional rights are prote.

r

in accordance with federal and state law, and has a duty to uphold the integrity
judicial system. He has as a ministerial duty, with no room for the exercise of
{

discretion, to execute his obligations which are required by direct and positive
command of the law.
STATEMENT OF THE CASE

K
I!.f

1

12. On July 7, 1995, DuLaurence brought an employment action in Suffolk

1

Superior Court against the defendant Liberty Mutual Insurance Company (Libert;

9

and seven other defendants, one being DuLaurence s immediate supervisor, Kenr._

j§

Latronico; another being the senior Vice-president of Liberty’s Human Resources

J

Helen Sayles; and another being Senior Vice-president and Chief Legal Counsel.

1

Christopher C. Mansfield. (Docket No. SUCV 1995-03733).

1

■'!

'A

7

(.

t

L

13.

On September 1, 1995, DuLaurence filed an Amended Complaint and Jury

I

Demand, upon removal from the MCAD and EEOC, raising twelve claims. Coun.

1

discrimination for age, handicap, and retaliation, including violations of Mass. Ge:

|

v,.

3.
c

12a.
v.'

1

r

54. The plaintiff has claimed lack of “procedural due process” as set out in the l.'?•
States Supreme Court’s Zinermon v. Burch, 494 U.S. 113, 125-126 (1990), the

r

deprivation of his Constitutional right to redress. (See 44 above.)
In addition to protection against procedural due process, the Due Process Clause has
two substantive components—the substantive due process simpliciter, and incorporated .

r

substantive due process. To state a claim for violation of the substantive due process
simpliciter, a plaintiff must demonstrate that there was conduct that was “arbitrary, or

c>

conscience shocking, in a constitutional sense”. Collins v. City ofBarker Heights, Texas,
503 U.S. 115, 128 (1992). This would pertain to the lower federal courts’ rulings, both as
to “jurisdiction”, and to 28 U.S.C. § 455(a). All United States Supreme Court cases are in
agreement. The plaintiff alleges judicial misconduct, acts by the defendant “so obviously
wrong in the light of preexisting law that only [someone] plainly incompetent or one who
was knowingly violating the law would have done such a thing”. Lassiter v. Alabama A

('

& M University Board of Trustees, 28 F.3d 1146, 1149 (11th Cir. 1994) (en banc). “Fraud
upon the court is fraud which is directed to the judicial machinery itself.” Bulloch v.
C

United Slates, 763 F.2d 115, 1121 (10th Cir. 1985); 42 U.S.C. § 1983.
With respect to incorporated substantive due process, a plaintiff may state a claim by
proving a violation of one of. the Bill of Rights, like the Constitutional right to redress.

C

The United States Supreme Court has held that one of the substantive elements of the
Due Process Clause protects those rights that are fundamental—rights that are implicit in
the concept of ordered liberty, and has, over time, held that virtually all of the Bill of

c
Rights protect such fundamental rights.
20.

c

c

r

Exhibit N
i

r
i
i
i

t!

\

!
<
!

P

i

*

I

1

i

>

Case 1:14-c\/~12349 D P W Document 35 Filed 03/31/15 Page 1 of 2.3

p

APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

r

HENRY J. DULAURENCE,

III,

)
)

CIVIL ACTION NO.
14-12349-DPW

Plaintiff,

r

)
)

V.

ARTHUR TELEGEN, and LIBERTY
MUTUAL INSURANCE COMPANY,

r

Defendants.

■

)

)

MEMORANDUM AND ORDER
March 31, 2015

c-

Plaintiff Henry DuLaurence filed this action, against
Liberty Mutual, his one-time employer, and Arthur Telegen, the
lawyer who represented Liberty Mutual during an employment

c
termination action that DuLaurence pursued against Liberty
Mutual ixi Massachusetts Superior Court.

c

He seeks relief from

two final judgments in Massachusetts: that entered in the
underlying employment action and that entered in a collateral
action that was dismissed pursuant to the anti-SLAPP (strategic

C

lawsuits against public participation) statute, Mass. Gen. Laws
ch. 231 § 59H, as well as damages arising from the conduct of
Liberty Mutual and Telegen during the Massachusetts litigation.

L.

Defendants move to dismiss on various grounds.

Concluding that

I am without jurisdiction to review the state court judgments
and that indeed. I would have an obligation did I have
L,
1

r

Case l:14 cv-12349-DPW Document 35 Filed 03/31/15 Page 2 of 23

jurisdiction to give full faith and credit to them,

I dismiss

C
this action.
I. BACKGROUND
The factual background provided here is derived from

C
DuLaurence's Amended Complaint and incorporated documents.

The

procedural background is derived from the Amended Complaint and

C

public records.
7

Wilson v. HSBC Mortg. Servs. , Inc., 744 F.3d 1,

(1st Cir. 2014)(in addition to the complaint, courts may

consider documents incorporated by reference in the complaint,

r

matters of public record, and other matters susceptible to
judicial notice).
Liberty Mutual is a Massachusetts corporation with a

c

principal place of business in Boston, Massachusetts.
Compl. SI 16.

DuLaurence worked for Liberty Mutual as an

attorney and was terminated in April 1995.
L.
is a partner at the law firm Seyfarth Shaw.
A.

L

Am.

Id. SI 17.

Telegen

Id. 1 15.

First Superior Court Action: The Underlying Employment
Action
DuLaurence brought an employment action in Suffolk Superior

Court in July 1995 against Liberty Mutual and several of its
employees alleging misconduct with respect to his termination

L
Id. SI 17.

Telegen represented Liberty Mutual and the

individually named defendants throughout that action.
DuLaurence brought 'claims in fourteen counts, thirteen of which

2

Case l:14-cv-12349-DPW Document 35 Filed 03/31/15 Page 6 of 23

a motion for rehearing.

Application for further review was

O

denied by the Supreme Judicial Court, DuLaurence v.

Telegen,

982

N.E.2d 1189 (Mass. 2013), and DuLaurence's petition for
Certiorari to the United States Supreme Court was also denied,

r

DuLaurence v.
C.

Telegen, 134 S.Ct. 897

(U.S. 2014).

Instant Federal Collateral Action
DuLaurence commenced this action by filing a complaint

C

against Liberty Mutual and Telegen on June 3, 2014.
amended complaint on June 5, 2014.
f

In essence,

He filed an

DuLaurence

contends that Liberty Mutual and Telegen engaged in unethical
practices during the first Superior Court action by withholding
discovery and making incorrect and misleading statements to the

f

court about what had been provided in discovery.

DuLaurence

seeks damages based on this conduct; he also seeks to have the
judgments in the Employment and Collateral actions from
\•

Massachusetts state court be declared void.
>

The complaint alleges eleven counts as to both of the
defendants, Liberty Mutual and Telegen. Count one is for an

C
alleged violation of civil rights, pursuant to 42 U.S.C. § 1983.
Counts two to four are counts alleging violations of federal
C.

criminal statutes.

Count two alleges obstruction of justice,

under 18 U.S.C. § 1512(c)(1) and (2), count three alleges
conspiracy to obstruct justice,

18 U.S.C. § 1512(c) and § 371,

6

r

Case l:14-cv-12349-DPW Document 35 Filed 03/31/15

Page 7 of 23

and count four alleges obstruction of judicial proceedings,

r

18

U.S.C. § 1503.
Counts five to eight each seek to set aside the prior
proceedings.

Count five cites Rule 60(b)(3) of the Federal and

r
Massachusetts Rules of Civil Procedure,

r

count six cites Rule

60(b)(4)

for the employment action, count seven cites Rule

60(b)(4)

for the collateral action, and count eight cites the

residual clause, Rule 60(b)(6).

Count nine requests costs for

unreasonable and vexatious multiplication of proceedings under

r

28 U.S.C. § 1927.

Count ten alleges intentional interference

with the practice of law.

Count eleven alleges intentional

infliction of emotional distress.
(

Each of these counts concerns

the conduct of Telegen and Liberty Mutual during litigation of
the earlier state court proceedings.
Telegen and Liberty Mutual filed a motion to dismiss

c

DuLaurence's amended complaint generally; the defendants also
filed a special motion to dismiss pursuant to Massachusetts
General Laws ch. 231, § 59'H, the anti-SLAPP statute.

In

C
addition, the defendants filed a motion to enjoin vexatious
litigation.

L

For his part, DuLaurence has opposed each of these

motions and also moved to strike the motion to enjoin vexatious
litigation and for sanctions against Telegen and Liberty Mutual.

7

c

Case l:14-cv-12349-DPW Document 35 Filed 03/31/15 Page 8 of 23

c

II. THE DUTY OF THE FEDERAL COURT
NOT TO INTERFERE WITH
FINAL STATE COURT JUDGMENTS
The plaintiff in this case essentially seeks review and
displacement of final state court judgments.

Finding that I

P
have an obligation not to do so:

(A) because lower federal

courts lack jurisdiction for such an undertaking, and (B)

r

because even if jurisdiction were granted to entertain this
litigation, I am affirmatively obligated to give full faith and
credit to the relevant state judgments,

C

I will dismiss this case

without reaching the merits of plaintiff's substantive claims.
A.

Subject Matter Jurisdiction and the Rooker-Feldman Doctrine

Although neither party raised concerns about this court's
(

jurisdiction in this matter, I have an obligation to inquire sua
sponte into my ability to exercise subject matter jurisdiction.
Fed. R. Civ. P.

1.
Cir. 2004).

12(h)(3); McCulloch v. Velez, 364 F.3d 1, 5 (1st

As a general proposition, federal district courts

may exercise subject matter jurisdiction in accordance with
L

congressional grants of authority such as for jurisdiction over
/
suits against foreign states, 28 U.S.C. § 1330, those raising
federal questions,

id. § 1331, and those involving diversity of

citizenship and at least the minimum requisite amount in
controversy,
Indus.

Corp.,

id. § 1332.

See Exxon Mobil Corp. v.

54 4 U.S. 280, 291

(2005) .

8

V-

Saudi Basic

Case l:14-cv-12349-DPW Document 35 Filed 03/31/15 Page 11 of 23

r

lost in state court and (2)

r

final.

that the state court proceeding was

The First Circuit has held that "when the highest state

court in which review is available has affirmed the judgment
below and nothing is left to be resolved, then without a doubt

r
the state court proceedings have 'ended.

/

tt

Id. at 455.

The two

state court proceedings that form the foundation of this action
proceeded to a final judgment in Superior Court, were appealed

C

through the Massachusetts courts, and DuLaurence sought writs of
certiorari on both to the Supreme Court, which were denied.

r

The questions whether (3)

DuLaurence complains of injuries

caused by the state court proceedings and (4) invites me to
review and reject the state court judgments is only slightly

c

more complex.
c

Some of DuLaurence's claims, specifically his

claims under Rule 60, explicitly ask me to review and reverse
the state court decisions.

c

He also purports to bring additional

federal claims, such as those stemming from federal criminal law
and federal civil rights law.

The fact that the federal

questions DuLaurence seeks to raise were not addressed by the
state court in the specific terms of the federal statutes does
not make a difference here.

L

To be sure, the Supreme Court in

Exxon did note that a plaintiff could bring an "independent
claim" over which the federal courts would still have
jurisdiction even if the claim denied a state court's legal

L,

conclusion.

Exxon,

433 U.S. at 293.
11

A claim is "independent"

f'

Case l:14-cv-12349-DPW Document 35 Filed 03/31/15 Page 12'of 23

when a party alleges that the injury was caused by the

r

See Galibois

defendant, separate from the state court decision.

v. Fisher, 174 Fed. Appx. 579, 580 (1st Cir. 2006)(unpublished,
r-

per curiam).

However,

DuLaurence's claims in this case are not
Rather, they

the type of independent claims that I may review.

are directly and inextricably tied to the state court judgments

r

themselves.
First Circuit precedent is clear that a claim need not
directly assert that it is attempting to appeal or attack a

r

state court decision in order to fall within the scope of the
Rooker-Feldman doctrine.

Rather, a plaintiff's claims may be

"an effort to do an end run around the state court's judgment."

C

Miller v. Nichols,

586 F.3d 53,

59 (1st Cir. 2009).

The Rooker-

Feldman doctrine is properly applied "where, regardless of how
the claim is phrased,

'the only real injury to Plaintiffs is

ultimately still caused by a state-court judgment.
Massachusetts,

r n

Silva v.

351 F.-App’x 450, 455 (1st Cir. 2009)(quoting

Davison v. Gov't of Puerto Rico-Puerto Rico Firefighters Corps.,
k.

471 F.3d 220, 223

(1st Cir. 2006)).

"Rooker-Feldman squarely

applies" when the substance of a plaintiff's request would
L

require me to "review and reject a final state court judgment."
Davison, 471 F.3d at 223.
In this case,

k-

DuLaurence does not allege any violation or

misconduct by the defendants that occurred outside of or
12

V•

r

Case l:14-cv-12349-DPW Document 35 Filed 03/31/15 Page 13 of 23

separate from their conduct during the state court litigation.

r

The only possible harm that DuLaurence suffered due to any
discovery misconduct was as a result of the state court rulings
based on that discovery.

r

The relief requested by DuLaurence .

includes vacatur of the judgments in favor of defendants and
entry of judgment for DuLaurence in the underlying actions.

r

'

Throughout the complaint, in addition to attacking the conduct
of the defendants and despite framing the' counts as being
directed to the two plaintiffs, DuLaurence also makes repeated

f

allegations about unethical, criminal, and illegal conduct by
See,

the judges that presided over the case in state court.
e.g., Amend. Compl. SIS! 115-32.

f

If "a plaintiff implicitly or explicitly seeks review and
rejection of the state judgment, then a federal suit seeking an
.opposite result is an impermissible attempt to appeal the state

c

judgment to the lower federal courts," which the Rooker-Feldman
doctrine teaches means that the federal courts lack
jurisdiction.

Federacion de Maestros de Puerto Rico v. Junta de

Relaciones del Trabajo de Puerto Rico, 410 F. 3d 17, 24

(1st Cir.

2005)(internal citations, quotation and correction marks
L

omitted).

Each of the claims that DuLaurence makes in this

action is, explicitly or implicitly, asking me to review the
conduct of the parties and the courts in the Massachusetts state
action, to review the ultimate state court judgment, and to find
13

.f—±

Case l:.14-cv-12349-DPW Document 35 Filed 03/3.1/15 Page 14 of 23

error that entitles him to relief from the state court
C
j udgments.

DuLaurence's efforts to challenge the conduct of

discovery and the rulings of judges in the state court action
present themes and minor variations on the original state court
actions themselves.

While DuLaurence attempts to repackage

these claims as federal questions,

f

it is plain that the conduct

and outcomes of which he complains are those from the earlier
state lawsuits, and that he seeks recourse in federal court to
re-litigate the same issues that came to final resolution in the

r

state courts.
Although the Rooker-Feldman doctrine is a narrow one, the
core of the doctrine is designed to address precisely these

C

situations.

DuLaurence asks me to act as a federal appellate

court in these completed state proceedings.

I do not have

subject matter jurisdiction to do so.
(. '

B.

Res Judicata
Even if I did have jurisdiction,

I would be obligated to

conclude that the final judgments in state court preclude
further review of the claims DuLaurence now makes,

I give

judgments the same res judicata effect they would receive in
Massachusetts state court.
also Isaac v. Schwartz,

See generally 28 U.S.C. § 1738; see

706 F.2d 15, 16-17

(1st Cir. 1983). The

term res judicata refers to two types of preclusion: claim
t,

Kobrin v. Bd. of Registration

preclusion and issue preclusion.
14

'■SK

r

Case l:14-cv-12349-DPW Document 35 F-iled 03/31/15 Page 20 of 23

finality against DuLaurence the very issues and claims that

C

DuLaurence attempts to raise again here.

He is precluded from

relitigating them.

c

III. DEFENDANTS' MOTION TO ENJOIN VEXATIOUS LITIGATION AND
PLAINTIFF'S MOTION TO STRIKE AND REQUEST FOR SANCTIONS
Because I lack jurisdiction to reach the merits of — or
perhaps more accurately,■the manifest lack of merit to —

C

DeLaurence's Complaint, I have considered it inappropriate to
address those merits in connection with the defendants' motions

r

to dismiss.

But the defendants, understandably apprehensive of

DeLaurence's prolonged pursuit of meritless claims,

seek an

injunction from this Court to protect them against future

c

litigation by the plaintiff.

Demonstrating the lack of self

awareness and professional competence which has characterized
his pursuit of this related litigation, DeLaurence for his part

c

requests sanctions of his own against the defendants.
Telegen and Liberty Mutual move, pursuant to Rule 11 of the
Federal Rules of Civil Procedure and the inherent powers of the
court,

for an order enjoining DuLaurence from filing any further

actions against defendants without my leave and until he has
paid the attorneys'

L

fees and costs that they were awarded in the

anti-SLAPP ruling of the collateral, action by the state court.
Federal courts have discretionary powers to regulate the
conduct of litigants

including "the ability to enjoin a party -

U
20

r

Case l:14-cv-12349-DPW Document 35 Filed 03/31/15 Page 21 of 23

even- a pro se party — from filing frivolous and vexatious

r

motions." United States v. Gomez-Rosario,
Cir. 2005).

r

418 F.3d 90,

101 (1st

While even a pro se litigant is not immunized from

sanctions, Jones, v. Social Security Administration, 2004 WL
2915290, *4

(D. Mass.

I note that DuLaurence

Dec. 14, 2004).

has been a Massachusetts licensed attorney since 1968, according
C

to the Board of Bar Overseers.2
This action is nearly identical to the collateral action
brought and dismissed in state court prior to this suit.

f

Both

this action and the state court collateral action are primarily
based on discovery violations and rulings that took place in the
employment action, a case that previously resolved on the merits

c

the same discovery and related issues that are at the heart of
DuLaurence's claims here.

As in Castro v. United States,

DuLaurence has "made allegations in previous suits that are
(,

virtually identical to certain allegations made in the instant
case, " and has demonstrated a "propensity to repeatedly file
suit against the same defendants .
adverse judgments."

.

. even in the face of

775 F.2d 399, 409

(1st Cir. 1985),

abrogated on other grounds by Stevens v. Dep't of the Treasury,
L

500 U.S. 1 (1991).

2 DeLaurence is currently in inactive status as a member of the
His right of audience here is based on his
Massachusetts bar.
pro se status to pursue personal claims and not as a member of
the bar.
21

k.

r

Case l:14-cv~12349-DPW Document 35 Filed 03/31/15 Page 22 of 23

Yet DuLaurence asks that the motion to enjoin vexatious

r

litigation be stricken and that sanctions be ordered instead
The request to strike is

against Telegen and Liberty Mutual,

r

without foundation,

and the motion for sanctions against the

defendants is denied as both procedurally and substantively
insufficient.
C

Fed. R. Civ. P. 11(c)(2).

The employment action was filed,
jury, and appealed.

DuLaurence lost.

litigated, tried to a
His filing of the state

court collateral action demonstrates his obdurate and heedless
(

inclination to continue challenging, without good reason and
without a procedurally valid mechanism for doing so, the
judgment in the employment action, despite a final and valid

(

judgment.

For that exercise, he faces state court sanctions.

He has now continued his meritless challenge to the underlying
state court judgment in this court.
(-

DuLaurence's vitriolic language in this action, including
personal attacks on the judges who have decided his cases in the
past, suggest that he is unlikely to accept the decision in this
L
case either.

Nonetheless, the principal ground for dismissal

was not one identified by the defendants in the motion to
L-

dismiss submissions and DeLaurence himself appears without
competence in federal litigation,

Because DeLaurence might be

considered unfamiliar with the legal principles which bar this
case in this court,

I will not now enter the injunction
22

f*

Case l:14-cv-12349-DPW Document 35

defendants seek.

Filed 03/31/15 Page 23 of 23

Further litigation on these matters in this

court, however, will likely result in severe consequences about
which DeLaurence, irrespective of his prior unfamiliarity with

r

federal practice, is now on clear notice
IV. CONCLUSION
For the reasons set forth more fully above, it is hereby
ORDERED that:
1. Defendants' Motion to Dismiss Plaintiff's Amended Complaint
and Independent Action to Set Aside Superior Court Judgment

f
(Doc. No. 14)

is GRANTED;

2. Defendants' Special Motion to Dismiss Plaintiff's Complaint

C

Pursuant to Mass. Gen. Laws Ch. 231, § 59H (Doc. No. 18) is
treated as MOOT;
3. Defendants' Motion to Enjoin Vexatious'Litigation (Doc. No.

C

23) is DENIED;
4. Plaintiff's Motion to Strike and Request for Sanctions
(Doc. No. 24)

is DENIED.

L

L
/s/ Douglas P.

Woodlook_______

DOUGLAS P. WOODLOCK
UNITED STATES DISTRICT JUDGE
1.
23

